No. ____________
In the
Supreme Court of the United States
DEWOYNE CURTIS POTTS, Petitioner
v.
JOHN GARZA, Respondent
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

Certificate of Service

I, Jill Ginstling, hereby certify that on July 28, 2020, a copy of
petitioner’s Motion for Leave to Proceed in Forma Pauperis and Petition for
Writ of Certiorari to the United States Court of Appeals for the Ninth Circuit
were mailed postage prepaid, to Deputy Attorney General Rama R Maline,
California Department of Justice, 300 South Spring Street, Suite 1702, Los
Angeles, California 90013, counsel for the Respondent.
1

In addition, a copy of petitioner’s Motion for Leave to Proceed in Forma
Pauperis and Petition for Writ of Certiorari to the United States Court of
Appeals for the Ninth Circuit was emailed to respondent’s counsel at
Rama.Levine@doj.ca.gov.

Respectfully submitted,
CUAUHTEMOC ORTEGA
Interim Federal Public Defender
DATED: July 28, 2020

_______________________________
By: JILL GINSTLING*
Deputy Federal Public Defender
Attorney for Petitioner Dewoyne Curtis
Potts
* Counsel of Record

2

